                                                                         United States Department of State
                                                                         and the Broadcasting Board of Governors

                                                                          Office of Inspector General

                                                                                                          MAR 19 2014




T he Honorable Edward Drusina, U.S. Commissioner
International Boundary and Water Commission
United States and Mexico, U.S. Section  ·
4171 North Mesa Street, Suite C-1 00
El Paso, TX 79902-1 441

Dear Commissioner Drusina:

The management Letter related to the audit of the International Boundary and Water Commission,
United States and Mexico, U.S . Section (USIBWC), 2013 financial statem ents
(AUD-FM-1 4-13) is enclosed for your review and action. It was prepared by an independent
external auditor, Kearney & Company, P.C., at the direction of the Office oflnspector General
(OIG). The letter contains informal recommendations that will not be subject to O f G's formal
compli ance process. However, the financial statement auditors will evaluate compliance during
fut11Je audits of the financial statements.

OIG .included comments provided by USIBWC in their entirety as Appendix B.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact me by email at ~ or Gayle Voshell ,
                                                  [Redacted] (b) (2), [Redacted] (b) (6)




Director of the Financial Management Division, by email at ~ .
                                                                              [Redacted] (b) (2), [Redacted] (b) (6)




Sincerely,


~~1~
Norman P. Brown 

Assistant Inspector General 

 for Audits 


Enclosure: As stated.

cc: WHA/MEX - Russe ll L. Frisbie
    USIBWC - Diana C. Forti
    Kearney & Company, P.C. - Kelly E. Go1Tell
                                                                1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                                PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                                      MANAGEMENT LETTER
                                         AUD-FM-14-13

To the United States Commissioner and the Inspector General of the International Boundary and
Water Commission, United States and Mexico, U.S. Section

Kearney & Company, P.C. (referred to as “we” hereafter), has audited the consolidated financial
statements of the International Boundary and Water Commission, United States and Mexico,
U.S. Section (USIBWC), as of and for the year ended September 30, 2013, and has issued our
report thereon dated December 20, 2013. 1 In planning and performing our audit of USIBWC’s
consolidated financial statements, we considered USIBWC’s internal control over financial
reporting. Our auditing procedures were designed for the purpose of expressing an opinion on
the consolidated financial statements and not to provide assurances on internal control.
Accordingly, we do not express an opinion on the effectiveness of USIBWC’s internal control
over financial reporting.

During our audit, we noted certain matters related to internal control over financial reporting that
we considered to be significant deficiencies under auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget Bulletin No. 14-02, Audit Requirements for Federal Financial
Statements. These items are not repeated in this letter, as they are explained in detail in our
report on USIBWC’s FY 2013 financial statements.

Our procedures were designed primarily to enable us to form an opinion on USIBWC’s
consolidated financial statements and therefore may not have identified all internal control
weaknesses that may exist. Although not considered to be material weaknesses or significant
deficiencies, we noted certain other matters involving internal control and operations. These
findings and recommendations, which are summarized in Appendix A, are intended to assist
USIBWC in strengthening internal control and improving operating efficiencies.

We appreciate the courteous and professional assistance provided by USIBWC personnel during
our audit. These findings and recommendations have been discussed with appropriate USIBWC
officials. Comments from USIBWC’s management on this report are presented as Appendix B.




1
 Independent Auditor’s Report on the International Boundary and Water Commission, United States and Mexico,
U.S. Section, 2013 and 2012 Financial Statements (AUD-FM-14-12, Dec. 2013).


                                                      1

This letter is intended solely for the information and use of USIBWC management, those
charged with governance, and others within USIBWC and the Office of Inspector General and is
not intended to be and should not be used by anyone other than these specified parties.




Alexandria, Virginia
March 19, 2014




                                             2

                                                                                           Appendix A


                         MANAGEMENT LETTER COMMENTS
COMMENT REPEATED FROM PRIOR YEAR

During the audit of the International Boundary and Water Commission, United States and
Mexico, U.S. Section (USIBWC) FY 2012 financial statements, Kearney & Company, P.C.,
(referred to as “we” hereafter) identified matters that were reported in an internal control report 1
and a management letter. 2 During the audit of the FY 2013 financial statements, we assessed the
status of the deficiencies reported during FY 2012. We reported a significant deficiency related
to budgetary accounting in the FY 2012 internal control report. The severity of the budgetary
accounting deficiency decreased in FY 2013. As a result, we are including budgetary accounting
in the management letter rather than the FY 2013 internal control report.

I.      Budgetary Accounting

Obligation Validity

Obligations are definite commitments that create a legal liability of the government for payment.
USIBWC records obligations in its financial management system when it enters into an
agreement, such as a contract or purchase order, to acquire goods and services. Once recorded,
obligations remain open until they are fully reduced by a disbursement, are deobligated, or until
the appropriation funding the obligations is cancelled. As invoices are received and payments
are made, obligations are liquidated by the amount of the payments. Unliquidated obligations
(ULO) represent the cumulative amount of orders, contracts, and other binding agreements for
which the goods and services ordered have not been received, or the goods and services have
been received but payment has not yet been made.

During the FY 2012 USIBWC financial statement audit, we identified obligation validity as a
significant deficiency. In response, USIBWC management placed more emphasis on ensuring
the validity of all obligations. Management’s initiative improved controls, and some large ULO
balances were deobligated during FY 2013. However, our testing of obligations during the FY
2013 audit identified three invalid ULOs. Although USIBWC conducted quarterly reviews for
ULO validity, we found that USIBWC did not prioritize its review on specific ULOs that were
considered to have a greater risk of being invalid. Rather, USIBWC reviewed all prior-year open
obligations in the first quarter of the fiscal year and all open obligations in the remaining
quarters. Focusing on high-risk obligations, such as aged ULOs that have not had recent activity,
may improve the effectiveness and efficiency of the ULO review process.

When extrapolated over the population, the three invalid ULOs identified during our testing
resulted in an estimated overstatement of obligations of $555,464 as of June 30, 2013. Invalid

1
  Independent Auditor’s Report on the International Boundary and Water Commission, United States and Mexico,
U.S. Section, 2012 Financial Statements (AUD-FM-13-10, Dec. 2012).

2
  Management Letter Related to the Audit of the International Boundary and Water Commission, United States and

Mexico, U.S. Section, 2012 Financial Statements (AUD-FM-13-11, Mar. 2013).


                                                       1

                                                                                  Appendix A


ULOs also affect USIBWC’s ability to manage its funds. Specifically, funds that could be used
by USIBWC for other purposes have remained in unneeded obligations. In addition, invalid
ULOs could result in inaccurate reporting by USIBWC in budgetary reports.

Recommendation:

We recommend that USIBWC continue to strengthen its standardized processes to ensure the
validity and accuracy of unliquidated obligations. Specifically, USIBWC should include a
definition of aging and dollar-based strata in its policies for the quarterly review of unliquidated
obligations to ensure consistent and representative reviews of high-risk items. Unliquidated
obligations that meet the strata definition should receive additional scrutiny to ensure the
obligations are needed.

NEWLY IDENTIFIED COMMENT

During the audit of USIBWC’s FY 2013 financial statements, one additional matter came to our
attention that had not been previously reported.

II.    Environmental Liabilities

Asbestos Cleanup Costs

Asbestos is a mineral-based material that was widely used in construction during the 19th and
early 20th century due to its affordability and resistance to fire, heat, and electrical damage.
USIBWC owns buildings and other structures that were constructed when the use of asbestos in
various building materials was common. Due to health concerns, the use of asbestos in most
building materials became prohibited in the 1980s and 1990s. Beginning in FY 2013, Federal
agencies were required to report on their financial statements a liability for the abatement and
cleanup costs of asbestos-related materials.

In order to comply with the new accounting standard, USIBWC planned to have external
environmental managers perform surveys to identify asbestos in USIBWC facilities and to
estimate abatement costs for asbestos that was identified. This work was not completed in time
for the FY 2013 financial reporting deadlines. As a result, USIBWC used an alternative method
to estimate the asbestos liability for its FY 2013 financial statements. As a first step, USIBWC
had field office representatives compile information on known and likely asbestos materials at its
facilities. We performed site visits to validate the inventory of asbestos compiled by USIBWC
and identified data issues. Specifically, we identified one facility that had been demolished
during FY 2013 but that was still being reported as having asbestos. In addition, one facility that
was not reported, because we were told the asbestos had already been abated, should have been
included because asbestos containing building materials still existed.

Due to procurement delays, USIBWC had to develop and execute alternative procedures to meet
FY 2013 asbestos reporting requirements. The need to perform these alternative procedures
allowed limited opportunity for USIBWC to validate the inventory of asbestos at its facilities.

                                                  2

                                                                                  Appendix A


Although USIBWC corrected the data inaccuracies we identified during the audit and completed
alternative procedures to meet FY 2013 financial reporting requirements, the timing of events
increased the risk of error and omission.

Recommendation:

We recommend that USIBWC

   •	 Complete its facility specific asbestos surveys and abatement estimates and update its
      process for reporting liability estimates in FY 2014.
   •	 Develop quality control procedures to validate the reasonableness of the survey data and
      resulting abatement estimates.

STATUS OF PRIOR YEAR MANAGEMENT LETTER FINDINGS

The current status of findings reported in the management letter related to the audit of
USIBWC’s FY 2012 financial statements is summarized in Table 1.

       Table 1. Current Status of Prior Year Management Letter Findings
             FY 2012 Management Letter Findings                  FY 2013 Status
        Analysis and Review of Financial Information                  Closed

        Presentation of the Statement of Net Cost                     Closed

        Prompt Payment Act                                            Closed




                                                       3

                                                                                                                             Appendix B




                                 li\: I 1'1~:"\1,\TIONAL BOUNDARY ANI> \\'1\ I J'R C0\1\IJ"'-'iiON
                                                    UNITED Sl ATr s .\1\!0 \.U·\ICO

      ~\                                                    Fcbruat} 12. 20 14

      ~
Utf a t (Jt Ill U 1'"1Nl1UM k
   ' '-ltl i \   -' I    ~Ill




         Mr. Norman P. Brown
         Unilcd SlaiCs Department o f State
         Assis ttm t Inspector General for Aud its
         Oflice of Inspector General
         Washington. 1>. C. 20520

         Subject: Management Letter related to the uudll ot the United Stmes ' ccuon, InternatiOnal
         Bound(lt} and Water Commission. 20 13Financial Stmement'>

         Dear Mr. Bro" n

         We 1\.'Cetved and have reviewed the drull Management Leiter of the, International Boundary and
         Water Cummtssion. United Slates and Mexico, United States Section ( lJS IBWC) FY 20 13
         financial statements.     Thank you for the opportunity to comment on you r audit
         recommendatiuns.

         1\ttached please find ou r res ponses to each of the recommendations as requested in the draft
         Management I c Hcr. Please advise if you have any questions or if we may be of any assistance.

                                                                   Sincerely,



                                                             !L-,(2~"'
                                                                    ..
                                                                   Edward Drusina. J>.E.
                                                                   Commissioner




                    llw Cummun~. Blllldmg C, Suit<" 100 • 1171 N . :\.lt·-..l Stn't•t • !!II',""· r,,,..,., 7<>902-1 4-1 I
                               ( 1·H5) 812-4100 • F.ll\: (915) H'\2-419() • http:/ /www.tbwcguv




                                                                     1
                                                                                                         Appendix B




                                            !\ lanagcmcnt Letter
                                             AUD·t-M·I·I·XX


                          ~ 1 Ai'IAG£~I ENT        LETTER CO~ I ~JEN T

I.         Hud gct ur~   Acco unting

Ohligation Validity

RI!COI!IIIWJHIIll ion;

We rceumnwnd thai USJBWC continue to strengthen its stnndn rdi t.cJ procc:;SC!-t to cni>urc the
vnlithly and accauacy of unliquidated obligntions. Specifically, USIBWC should 111cludc a
delimtion of aging and dollar-based strata 111 1ts pohcie!-. for the quarter! y re' 1cw of
unhqllldnted nbhgauon~ to ensure consistent and rcprc~cntnti,·c rc' IC\\:; ol lugh· n~l.. Hems.
UnhqUid.llcd obligauons that meet the strata dcfinauon !-hould rccca\C addauonal scrutan} to
cn~urc the obl1g;liiOilS arc needed.




;\£\\ L      IL> E~ T I FI £ 0 COMt\I£~T


II.       £11\ ironmca11al Liabilit ies

A!lbi! tos   Cleanup     \o~t


Rccommcnd.at1on·

We rccommcnd that USIBWC
      Complete its focility specific asbestos surveys and abatement estimates and updute its
      proee1-~ lilr reporting liability estimates 111 I'Y 20 14.


      Develop qual ity control procedure:-: to v:llidatc the reasonablenei>s of the ~ u rvey da ta nnd
      rc~u l ung abatement estimates.




                                                    2
